Department of Homeland Security
   Ofﬁce of Inspector General

            DHS Contracts Awarded Through Other 

            Than Full and Open Competition During 

                       Fiscal Year 2009 





OIG-10-55                                       February 2010
                                                            Office ofInspector General

                                                             U.S. Department of Homeland Security
                                                             Washington, DC 20528




                                                             HomeI an
                                                             Security
                                    FEB 052010

                                          Preface

The Department of Romeland Security (DRS) Office ofInspector General (OIG) was
established by the Homeland Security Act of2002 (Public Law 107-296) by amendment
to the Inspector General Act of 1978. This is one of a series of audit, inspection, and
special reports prepared as part of our oversight responsibilities to promote economy,
efficiency, and effectiveness within the department.

This report addresses the strengths and weaknesses of the departmenfs noncompetitive
procurement process. It is based on interviews with employees and officials, direct
observations, and a review of applicable documents.

The recommendations herein have been developed to the best knowledge available to our
office, and have been discussed in draft with those responsible for implementation. We
trust this report will result in more effective, efficient, and economical operations. We
express our appreciation to all of those who contributed to the preparation of this report.

                                    ~~O<~
                                      Richard L. Skinner
                                      Inspector General
Table of Contents/Abbreviations
Executive Summary .............................................................................................................1


Background ..........................................................................................................................2


Results of Audit ...................................................................................................................6


     Recommendations........................................................................................................13

     Management Comments and OIG Analysis ................................................................13


Appendices
     Appendix A:           Purpose, Scope and Methodology........................................................16 

     Appendix B:           Management Comments to the Draft Report .......................................18 

     Appendix C:           DHS Contracts Reviewed ....................................................................37 

     Appendix D:           Major Contributors to this Report........................................................38 

     Appendix E:           Report Distribution ..............................................................................39 


Abbreviations
     AAP                   Advance Acquisition Plan 

     CPO                   Chief Procurement Officer 

     DHS                   Department of Homeland Security 

     FAR                   Federal Acquisition Regulation 

     FPDS-NG               Federal Procurement Data System-Next Generation 

     OIG                   Office of Inspector General 

OIG

Department of Homeland Security
Office of Inspector General

Executive Summary
                   Public Law 111-83, Department of Homeland Security
                   Appropriations Act, 2010 included a requirement that the
                   Department of Homeland Security Office of Inspector General
                   review the department’s contracts awarded during fiscal year 2009
                   through other than full and open competition to determine
                   compliance with applicable laws and regulations. To meet this
                   mandate, we reviewed selected DHS component procurement files,
                   as well as DHS policies, procedures, and management controls, to
                   determine whether acquisition personnel appropriately documented
                   and supported contracting decisions.

                   In fiscal year 2009, the Department of Homeland Security
                   obligated about $3.4 billion for procurements awarded through
                   other than full and open competition. Based on our review of 39
                   contract files, with a reported value of more than $196 million,
                   acquisition personnel did not always follow federal regulations
                   when awarding noncompetitive contracts. Award files did not
                   always contain sufficient evidence of market research or adequate
                   acquisition planning. As a result, the department cannot ensure
                   that it received the best possible value on these acquired goods and
                   services.

                   We are making two recommendations that the department’s Chief
                   Procurement Officer strengthen internal controls over other than
                   full and open competition procurements. The Chief Procurement
                   Officer concurred with the intent of Recommendation 1 and fully
                   concurred with Recommendation 2.




           DHS Contracts Awarded Through Other Than Full and Open Competition 

                                During Fiscal Year 2009 


                                         Page 1
Background
                The Competition in Contracting Act of 1984 requires, with limited
                exceptions, that contracting officers promote and provide for full
                and open competition in soliciting offers and awarding United
                States government contracts. The Federal Acquisition Regulation
                (FAR) was established to codify uniform policies for acquiring
                supplies and services by executive agencies.

                The Office of the Federal Procurement Policy within the Office of
                Management and Budget plays a central role in shaping the
                policies and practices that federal agencies use to acquire the goods
                and services they need to carry out their responsibilities. The
                office employs several tools to collect, develop, and disseminate
                government-wide procurement data for use by federal agencies and
                the general public, the most significant being the Federal
                Procurement Data System-Next Generation (FPDS-NG). The
                Government uses FPDS-NG reported data to measure and assess
                various elements of procurement performance, including funds
                obligated and the extent of competition. The Office of Federal
                Procurement Policy requires that executive agencies annually
                certify that the data they enter into FPDS-NG is valid and
                complete.

                Competition is desirable because it can result in timely delivery of
                quality products and services at reasonable costs. It encourages
                contractors to offer best value proposals for meeting mission needs
                and requirements when bidding on federal contracts, thereby
                reducing costs and protecting the interest of taxpayers. According
                to the FAR, “best value” is the expected outcome of an acquisition
                that, in the government’s estimation, provides the greatest overall
                benefit in response to a requirement. Competition also discourages
                favoritism by leveling the playing field for contract competitors
                and curtailing opportunities for fraud and abuse.

                Contract specialists are required to perform certain steps during the
                other than full and open contracting process. As depicted in the
                flowchart on page 3, the other than full and open competition
                process begins when a need is identified. Afterwards, market
                research is performed to determine the most suitable approach for
                acquiring, distributing, and managing supplies and services to
                support the department’s mission. Acquisition planning helps
                ensure that the government is meeting its needs in the most
                effective, economical, and timely manner. With this assurance,


        DHS Contracts Awarded Through Other Than Full and Open Competition 

                             During Fiscal Year 2009 


                                      Page 2
                         acquisition personnel announce a solicitation on FedBizOpps, the
                         single, government-wide point of entry for federal procurement
                         opportunities greater than $25,000. Government buyers can
                         publicize their business opportunities by posting information
                         directly to this website. Within 14 days of posting the solicitation,
                         acquisition personnel award the contract and publish the
                         justification and approval document on FedBizOpps, ending the
                         contracting process 1 .




                         The following entities within the Department of Homeland
                         Security (DHS) have a role in managing these procurements:

                                  The Office of the Chief Procurement Officer – DHS
                                  Management Directive 0784, dated December 19, 2005,
                                  places responsibility on this office for ensuring the integrity
                                  of all acquisitions that support DHS. The office provides
                                  policy, procedures, guidance, and training to the
                                  department’s acquisition workforce. The office also
                                  oversees the acquisition of contracted goods and services
                                  for DHS through several entities, such as the Acquisition
                                  Oversight and Strategic Support Branch, the competition
                                  advocates, and heads of contracting activity.

                                  The Acquisition Oversight and Strategic Support Branch –
                                  Within this branch, a staff of employees conducts oversight
                                  to verify the integrity of the acquisition practices of DHS
                                  and its components. This branch also provides acquisition
                                  training, offers consultation services for DHS contracting
                                  personnel, and serves as external audit liaison on
                                  acquisition-related topics. The Acquisition Oversight
                                  Team is responsible for reviewing procurements within


1
 The FAR allows exceptions to the standard process for contracts awarded using the Unusual and
Compelling Urgency exception to support other than full and open competition.


                 DHS Contracts Awarded Through Other Than Full and Open Competition 

                                      During Fiscal Year 2009 


                                                Page 3
                specified thresholds to ensure compliance with applicable
                regulations and policies.

                The DHS competition advocate is responsible for
                promoting full and open competition; promoting
                acquisition of commercial items; and removing barriers to
                full and open competition, such as unnecessarily restrictive
                statements of work, overly detailed specifications, and
                burdensome contract clauses. The competition advocate
                must submit an annual report to the Chief Procurement
                Office on the components’ procurement activities.

                Procuring Competition Advocate is responsible for
                promoting full and open competition; promoting
                acquisition of commercial items; and removing barriers to
                full and open competition, such as unnecessarily restrictive
                statements of work, overly detailed specifications, and
                burdensome contract clauses at the component level.
                Procuring Competition Advocates must submit an annual
                report to the DHS Competition Advocate on the
                components’ procurement activities.

                Heads of contracting activity directly manage the
                procurement functions of their respective components.
                They assist in the execution of acquisition programs by
                providing all of the necessary resources, facilities, and
                infrastructure for the acquisition process. The heads of
                contracting activity also provide procurement data and
                lessons learned to the Chief Procurement Officer for wider
                distribution within DHS.

                Contracting officers are responsible for many of the
                activities leading up to an acquisition for goods or services.
                This includes ensuring that sufficient funds are available
                for obligation, requesting offers from as many potential
                sources as practicable, certifying that all required
                justifications and approvals are accurate for awarding
                contracts noncompetitively, and determining that the
                anticipated cost will be fair and reasonable to the
                government. Contracting officers are also responsible for
                timely and accurate reporting of procurement data to the
                FPDS-NG.




DHS Contracts Awarded Through Other Than Full and Open Competition 

                     During Fiscal Year 2009 


                              Page 4
                Program managers within DHS are empowered to make
                final scope of work, capital investments, and performance
                acceptability decisions, and are responsible for
                accomplishing program objectives or production
                requirements through the acquisition of in-house, contract,
                or reimbursable support resources, as appropriate. The
                program managers’ duties include developing and updating
                the acquisition plan, coordinating with other personnel
                responsible for significant aspects of the plan, obtaining
                applicable concurrences, and forwarding the plan through
                the approval process.

                Technical Representatives are responsible for providing
                and certifying as accurate and complete necessary data to
                support their recommendation for other than full and open
                competition.

        On October 28, 2009, the President signed Public Law 111-83,
        Department of Homeland Security Appropriations Act, 2010.
        Section 521(d) of the law directs the Office of Inspector General
        (OIG) to review the department’s contracts awarded during fiscal
        year 2009 through other than full and open competition to
        determine departmental compliance with applicable laws and
        regulations. To meet the requirements of this legislative mandate,
        we reviewed selected DHS component procurement files for
        contracts awarded during fiscal year 2009 through other than full
        and open competition to determine whether all required
        justifications and other elements were documented and approved at
        the appropriate level. We selected 39 noncompetitive
        procurements for review with a total estimated value of more than
        $196 million. We reviewed DHS policies, procedures, and
        management controls to determine whether acquisition personnel
        appropriately documented and supported contracting decisions.




DHS Contracts Awarded Through Other Than Full and Open Competition 

                     During Fiscal Year 2009 


                              Page 5
Results of Audit
          Our review and analysis of 39 DHS procurement files recorded during
          fiscal year 2009 as other than full and open competition showed that 33
          had missing or inadequate documentation proving compliance with
          departmental or federal acquisition regulations. FAR § 4.801(b),
          Government Contract Files requires that contract file documentation be
          sufficient in order to constitute a complete history of the transactions for
          the purpose of:

                  Providing a complete background as a basis for informed decisions
                  at each step in the acquisition process;
                  Supporting actions taken;
                  Providing information for reviews and investigations; and
                  Furnishing essential facts in the event of litigation or congressional
                  inquiries.

          The procurement files reviewed did not always have sufficient evidence of
          market research or acquisition planning. Acquisition personnel did not
          always follow regulations, policies, or procedures to support awarding the
          contracts through other than full and open competition. As a result, the
          department cannot ensure that it received the best possible value on the
          goods and services it acquired from these contracts.

          Noncompetitive Procurement Justification and Approval

                  Although competition is the preferred method of acquisition within
                  DHS, FAR §§ 6.302-1 – 6.302-7, permit the following
                  circumstances for other than full and open competition:

                      Only one responsible source and no other supplies or services
                      to satisfy agency requirement;
                      Unusual and compelling urgency;
                      Industrial mobilization; engineering, developmental, or
                      research capability; or expert services;
                      International agreement;
                      Authorized or required by statute;
                      National security; and
                      Public interest.




          DHS Contracts Awarded Through Other Than Full and Open Competition 

                               During Fiscal Year 2009 


                                        Page 6
                          The FAR requires that any agency contracting officer who
                          approves the acquisition of goods
                          or services through other than full    Figure 1. Exceptions to Written Justification
                                                                 and Approval Requirement for
                          and open competitions provides         Noncompeted Procurements
                          written justification. The
                          justification must have the proper     1: Agency need for a brand name commercial
                                                                 item for authorized resale.
                          approvals from the appropriate
                          authority based on an established      2: Acquisition from Qualified Nonprofit
                          dollar threshold. Depending on the Agencies
                                                                 Disabled.
                                                                           for the Blind or other Severely

                          dollar amount of the acquisition,
                                                                 3: Sole source awards under the 8(a) Program. 2
                          the justification approval
                          requirements may vary. For             4: When a statute expressly requires that the
                                                                 procurement be made from a specified source.
                          procurements that require written
                                                                    Sole source acquisitions with an estimated
                          justification, the contracting officer 5:
                                                                 value equal to or less than $100,000 that qualify
                          must sign to certify that the          under the FAR test program for certain
                          information is complete and            commercial items.
                          accurate. As shown in figure 1,        6: USCG is exempt from the requirement for
                          the FAR allows some exceptions         written justifications and approvals for contracts
                                                                 awarded citing International Agreement.
                          to the requirement for written
                          justification for noncompeted          Source: FAR Subpart 6.302-4(c); 6.302­
                                                                 5(c)(2); and 13.501(a)(2)(i)
                          procurements.

                          We reviewed 39 noncompetitive procurements from fiscal year
                          2009, with an estimated value of more than $196 million. Contract
                          data recorded in FPDS-NG showed that 15 of the noncompetitive
                          procurements required justification and written approval.
                          However, based on our contract file review, 2 of the 15
                          procurements did not have a written justification and approval
                          document. As a result, we were unable to determine whether these
                          two procurements were properly awarded through other than full
                          and open competition or whether they were miscoded in FPDS­
                          NG.

                          Sole Source Awards Under the 8(a) Program

                          Of the 39 noncompetitive procurements from fiscal year 2009 that
                          we reviewed, 18 or 46% did not require written justification for the
                          decision to award non-competitively because components awarded
                          them under the Small Business Administration 8(a) sole source
                          program exception listed in figure 1. However, FAR part 10

2
  The Small Business Administration’s (SBA) 8(a) Program, named for a section of the Small Business
Act, is a business development program created to help small disadvantaged businesses compete in the
American economy and access the federal procurement market. Participants are given preferential
treatment in federal contracting.


                 DHS Contracts Awarded Through Other Than Full and Open Competition 

                                      During Fiscal Year 2009 


                                                 Page 7
        requires that agencies conduct market research for all
        procurements. Specifically, it requires that agencies perform
        research to identify the capabilities of small businesses that are
        available in the marketplace for meeting the requirements of the
        agency. It further states that agencies shall use this market
        research to determine whether sources capable of satisfying the
        agency’s requirements exist.

        Based on our review of the contract files, 14, or 78% of the 18
        small business 8(a) sole source procurement files lacked any
        evidence that procurement personnel conducted market research.
        For example, the files for three of the 14 (21%) procurements,
        worth over $3.9 million, included documentation that public
        solicitation for the procurements had not been issued to the small
        business community as a small business set-aside. The
        documentation further stated that no other public communication
        had been made regarding the acquisition. This documentation
        shows that procurement personnel did not consider any other small
        businesses under the 8(a) program for the procurements.

        The Small Business Administration has a partnership agreement
        with the DHS where it delegates certain contract execution
        functions for sole source procurements under FAR part 19. This
        partnership agreement does not exempt procurement personnel
        from performing market research as required by FAR part 10.

        Without proper documentation to support and justify procurement
        decisions, DHS increases the risk that components are awarding
        inappropriate procurements. DHS also cannot be certain that
        components considered alternative contractors for procurements in
        the Small Business Administration 8(a) Program. Ultimately, the
        department had no assurance that it was receiving the best possible
        value on the acquired goods and services.

        Market Research

        Many of the noncompetive procurement files we reviewed for
        fiscal year 2009 did not contain sufficient evidence that market
        research was performed as required by
        the FAR. FAR § 10.001 requires                  The FAR defines market
        agencies to conduct market research             research as collecting
        before (1) developing new requirements          and analyzing
                                                        information about
        documents for an acquisition, and (2)           capabilities within the
        soliciting offers for an acquisition that       market to satisfy agency
        exceeds $100,000, or is less than               needs.


DHS Contracts Awarded Through Other Than Full and Open Competition 

                     During Fiscal Year 2009 


                              Page 8
        $100,000 when adequate information is not available and
        circumstances justify the cost, or could lead to a bundled contract.
        Market research should be conducted to ensure that the
        government is procuring goods and services at reasonable costs,
        regardless of the status of competition.

        We identified deficiencies with market research for 31 or 79% of
        the 39 fiscal year 2009 noncompetitive procurements. We
        previously discussed 14 of the 31 procurements under the Sole
        Source Awards using the 8(a) Program section on page 7. The
        remaining 17 noncompetitive procurements did not provide
        sufficient evidence that market research was performed before
        awarding the funds. We noted that:

                    For 7 procurements, the files did not contain evidence
                    that component personnel conducted market research,
                    as required. Five of the seven procurements, valued at
                    $10,874,733, were international agreements between
                    the U.S. and foreign governments. Based on our
                    contract file review, none of the five contract files
                    showed evidence that market research was performed.
                    FAR §§ 6.302-1 – 6.302-7 provide exceptions to full
                    and open competition, but not from conducting market
                    research. According to knowledgeable personnel, the
                    Letter of Offer and Acceptance does not exempt
                    contracting personnel from following standard
                    procurement guidelines, such as conducting market
                    research.

                    For the remaining 10 noncompetitive procurements,
                    market research was summarized or mentioned in the
                    files. However, the contract files did not contain
                    sufficient documentation to support the summaries or
                    the activities conducted. For example, six of the 10
                    procurements, valued at $76,432,906, were from two
                    components and contained no documentation
                    supporting that market research had been conducted.
                    Although market research was mentioned in one report
                    in a file, the file contained no documentation to show
                    that it had been done.

        The FAR provides limited guidance on the extent of market
        research that agencies must conduct and document with
        procurements. In addition, the Department of Homeland Security


DHS Contracts Awarded Through Other Than Full and Open Competition 

                     During Fiscal Year 2009 


                              Page 9
        Acquisition Regulation and the Department of Homeland Security
        Acquisition Manual, followed during FY 2009, did not provide any
        further guidance to DHS components than what was in the FAR.
        This guidance required agencies to conduct market research, but
        did not require them to validate supporting documentation or
        assign responsibility to specific personnel. This allows personnel
        to apply market research requirements inconsistently. For
        example, some contracts contained a written market analysis, while
        others contained copies of data compiled from internet searches
        and cited as market research.

        DHS updated its Homeland Security Acquisition Manual in
        October 2009 to include a Market Research Guide in Appendix I.
        This guide provides additional department-wide guidance to assist
        Acquisition Teams in determining the most suitable approach to
        acquiring, distributing, and managing supplies and services to
        support the department’s mission. The Market Research Guide
        provides policies and procedures for conducting market research.
        The guide explicitly states that market research:

                    Should start as soon as requirements are forecast as part
                    of the acquisition planning and the development of the
                    Advance Acquisition Plan.

                    Efforts and results must be clearly documented and
                    included in the contract file.

                    Reports should be appropriate to the size and
                    complexity of an acquisition.

        The Market Research Guide emphasizes for DHS components that
        a market research plan is essential to ensure that the research
        conducted is adequate and appropriate to the requirement. The
        guide goes further to state that the market research plan should
        document the overall research techniques the acquisition team will
        employ, information sources to be used, responsibilities of the
        team members, decision points in the process, and the timeframe
        for each task. The guide also provides attachments that list
        specific resources for market research, rules for meeting with
        industry representatives, guidelines for one-on-one discussions,
        and a market research report template.

        The publication of such guidance should help DHS correct the
        market research deficiencies previously noted. By following both


DHS Contracts Awarded Through Other Than Full and Open Competition 

                     During Fiscal Year 2009 


                              Page 10
        the departmental and federal policy, DHS components can ensure
        that they obtain the greatest overall benefit in response to
        procurement requirements.

        Acquisition Planning

        The DHS components we reviewed either did not prepare or could
        not provide the acquisition planning documentation required for
        some procurements awarded in fiscal year 2009. According to
        FAR §2.101, acquisition planning is the process by which the
        efforts of all personnel responsible for an acquisition are
        coordinated and integrated into a comprehensive plan for fulfilling
        an agency’s needs in a timely manner and at a reasonable cost. It
        entails developing the overall strategy for managing an acquisition.
        FAR § 7.102 requires that agencies perform acquisition planning
        and market research to promote and provide for:

                    Procurement of commercial or non-developmental
                    items to the maximum extent practicable; and

                    Full and open competition; or competition to the
                    maximum extent practicable, with due regard to the
                    nature of the supplies or services to be acquired.

        The Department of Homeland Security Acquisition Manual,
        Appendix I, requires DHS to prepare a written acquisition plan for
        nondevelopmental acquisitions valued greater than or equal to $10
        million. One exception is for research and development
        procurements valued greater than or equal to $5 million, which
        also require written acquisition plans. For all other acquisitions
        valued less than $10 million, entry of information into the Advance
        Acquisition Plan database satisfies the written acquisition plan
        requirement. The Federal Interagency Database Online, located at
        www.fido.gov, is DHS’ search tool for planned acquisitions for
        requirements over $100,000.

        The Advance Acquisition Plan (AAP) is a DHS plan of all
        anticipated procurements, including interagency agreements,
        blanket purchase agreements, and task orders greater than
        $100,000 for the upcoming fiscal year. Acquisition personnel
        develop the plans on a fiscal year basis for procurements over
        $100,000 and less than $10 million ($5 million for research and
        development) and modify the plans throughout the acquisition
        cycle using the DHS wide electronic AAP system under


DHS Contracts Awarded Through Other Than Full and Open Competition 

                     During Fiscal Year 2009 


                              Page 11
        www.fido.gov. AAPs contain the integrated and coordinated
        efforts of all relevant acquisition personnel in determining
        acquisition requirements, financing, strategic planning, small
        business considerations, technical data requirements, contracting,
        and contract administration.

        Of the 39 noncompetitive procurements in our sample, 34 or 87%
        required an AAP. However, 18 or 53% of the 34 procurements,
        with a value of $46,618,206, either did not have an AAP,
        referenced the incorrect AAP number, did not have a printout in
        the contract file, or component personnel could not provide the
        AAP numbers to enable us to retrieve the information from the
        Federal Interagency Database On-Line. Specifically:

                    Four of the 18 procurements did not have an AAP
                    created.

                    Thirteen of the 18 procurements did not have a printout
                    in the files documenting the AAP number.

                    One of the 18 had an AAP number in the procurement
                    file; however, we were unsuccessful in obtaining the
                    AAP because the “Federal Interagency Database On-
                    Line could not locate the AAP number in the current
                    AAP catalog.”

        There is currently no requirement at the federal or component level
        to provide AAP numbers in the contract files. However,
        Procurement Operating Procedure 107, issued by the DHS Office
        of Procurement Operations on May 22, 2008 directs acquisition
        personnel to identify and describe program requirements in the
        Federal Interagency Database On-Line and obtain AAP numbers
        for their procurements and include the numbers in their purchase
        requests. For procurements not managed by the DHS Office of
        Procurement Operations, the guidance allows acquisition personnel
        to exclude AAP information from the contract files. Without the
        AAP, supporting documentation is limited to confirm whether
        personnel adequately performed advanced acquisition planning.

        The department needs to place greater emphasis on better planning
        and documenting its acquisitions and decisions making processes.
        Making sure each component’s acquisition decisions are well
        documented, integrated, and coordinated in determining
        requirements, financing, strategic planning, small business


DHS Contracts Awarded Through Other Than Full and Open Competition 

                     During Fiscal Year 2009 


                              Page 12
        considerations, technical data requirements, contracting, and
        contract administration, will assist the department in this effort, as
        well as in ensuring that the goods and services acquired are the
        best value.

Recommendations
        We recommend that the DHS Chief Procurement Officer, in
        coordination with DHS component heads of contracting activity:

        Recommendation #1: Develop or strengthen an oversight review
        process for current and future other than full and open competition
        contract awards , including sole source contracts awarded under
        the 8(a) Program, to ensure component procurement files contain
        sufficient documentation to show compliance with FAR
        requirements.

        Recommendation #2: Develop and implement guidance at the
        DHS level to require that acquisition personnel include Advanced
        Acquisition Plan numbers in procurement files, when applicable
        based on established dollar thresholds.

Management Comments and OIG Analysis
        The Acting Chief Procurement Officer (CPO) provided comments
        on a draft of this report. A copy of the comments in their entirety
        is included in appendix B. The Chief Procurement Officer
        concurred with the intent of Recommendation 1 and fully
        concurred with Recommendation 2. The CPO also provided
        technical comments and suggested revisions to sections of our
        report. As appropriate, we made changes throughout the report in
        response to the CPO’s technical comments and suggested
        revisions.

        Management Comments to Recommendation 1

        The CPO concurred with the intent of the recommendation. The
        CPO agrees that lack of sufficient documentation is an issue for
        FY 2009 contract files, but believes it has a viable oversight
        program in place. Currently, the Office of the CPO maintains
        oversight of procurement actions that exceed specific dollar
        thresholds, conducts special reviews of specific contracting
        actions, and follows up on the special reviews. As part of his
        response, the CPO included a copy of the memorandum of results


DHS Contracts Awarded Through Other Than Full and Open Competition 

                     During Fiscal Year 2009 


                              Page 13
        of his office’s on-site baseline review. The CPO plans to follow
        up on the results of this review in the first quarter of FY 2011 and
        plans to issue those results in January 2011. According to the
        CPO, if the follow up review does not indicate significant
        improvement in contract file documentation, his office will initiate
        additional actions to address the issues.

        OIG Analysis: Dependent upon completion of the follow up
        review scheduled for FY 2011 and its results, the CPO’s planned
        actions will satisfy the intent of this recommendation. The
        recommendation is resolved, but will remain open until the Office
        of the CPO provides the results of its FY 2011 follow-up reviews
        and any actions taken because of the reviews.

        Management Comments to Recommendation 2

        The CPO concurred with the recommendation. The CPO will
        amend the Homeland Security Acquisition Manual to include a
        requirement that the Advanced Acquisition Plan number be
        included in the contract file.

        OIG Analysis: The CPO’s actions are responsive to the
        recommendation. The CPO’s revision of the Homeland Security
        Acquisition Manual to include the Advanced Acquisition Plan
        number in the contract file shows the department’s efforts to place
        greater emphasis on better planning and documentation of its
        acquisitions and decision-making processes. This recommendation
        is resolved, but will remain open until the CPO provides a copy of
        the updated/amended Homeland Security Acquisition Manual.

        Management’s Technical Comments on Report Content

        The CPO also provided technical comments and suggested
        revisions to sections of our report. We made a number of changes
        throughout the report in response to these technical comments and
        suggested revisions. However, we did not make changes in the
        following areas:

            Noncompetitive Procurement Justification and Approval: The
            CPO did not agree that 2 of the 15 noncompetitive awards
            required a justification and approval document. For the two
            contracts cited in the report, which are competitive
            procurements, one did not require justification and approval
            because it was awarded under a Broad Agency Announcement.


DHS Contracts Awarded Through Other Than Full and Open Competition 

                     During Fiscal Year 2009 


                              Page 14
            The other contract was a Phase II Small Business Research
            Program award that does not require justification and approval.
            Phase I was competed among small business concerns.

            OIG Analysis: We relied solely on the documentation within
            the contract file to perform our compliance review. We also
            relied on the information in FPDS-NG to provide us with
            correct contract information. The two contracts referenced in
            this section were included in our contract file review because
            they were coded as “not competed” in the FPDS-NG system.

            International Agreements: The CPO took exception to our
            finding regarding five international agreements that did not
            show evidence of market research. The CPO explained that
            Letters of Offer and Acceptance are contracts between the U.S.
            Coast Guard and the foreign government(s) that direct the
            Coast Guard to purchase a specific asset (identified by
            manufacturer, model number, etc). In such cases, it is
            inappropriate and not in the government’s best interest to
            conduct market research.

            OIG Analysis: For the five international agreements cited in
            the report, the Letters of Offer and Acceptance did not contain
            requests for specific assets (manufacturer, model number, etc).
            The Letters of Offer and Acceptance contained various line
            item numbers, such as the National Stock Numbers for the
            items ordered, but did not explicitly provide the detail needed
            as justification for sole source awards. Although the CPO may
            be correct regarding the exception cited to conducting market
            research, we did not find the contract files to be as transparent
            about sole source justification as the CPO asserted in its reply.




DHS Contracts Awarded Through Other Than Full and Open Competition 

                     During Fiscal Year 2009 


                              Page 15
Appendix A
Purpose, Scope, and Methodology

                    On October 28, 2009, the President signed Public Law 111-83,
                    Department of Homeland Security Appropriations Act, 2010.
                    Section 521(d) of the law directs the OIG to review the
                    department’s contracts awarded during fiscal year 2009 through
                    other than full and open competition to determine departmental
                    compliance with applicable laws and regulations.

                    To meet the requirements of this legislative mandate, we reviewed
                    applicable federal laws and regulations, as well as DHS and
                    component-specific guidance to identify requirements for
                    noncompetitive contract awards. We examined prior audit reports
                    to identify related work in this regard. We also reviewed DHS
                    procurements in fiscal year 2009 to determine whether selected
                    components’ justifications for noncompetitive procurement awards
                    contained required elements and were appropriately approved.

                    We sampled procurement files for four of eight DHS procurement
                    offices. We selected for review the procurement offices with the
                    highest estimated dollar value of contracts awarded through other
                    than full and open competition, as reported in FPDS-NG. We
                    coordinated our selections with the Government Accountability
                    Office team that performed a similar audit during the same
                    timeframe. Our sample covered procurement offices within the
                    U.S. Coast Guard, Transportation Security Administration, Federal
                    Emergency Management Agency, and the DHS Office of
                    Procurement Operations, which is responsible for acquisitions by
                    the Office of the Secretary and the U.S. Citizenship and
                    Immigration Services.

                    We reviewed a judgmental sample of 39 noncompetitive based
                    contract procurement files, with approximately 10 files from each
                    selected component that FPDS-NG indicated were awarded
                    through other than full and open competition. We reviewed the
                    procurement files to determine whether they contained the
                    documentation needed to justify the contract awards. Specifically,
                    we determined whether the noncompetitive procurements files
                    contained proper justifications and approvals, adequate market
                    research, and acquisition plans appropriate to the dollar values of
                    the awards. Because there is no assurance that a judgmental sample
                    is representative of the entire universe, our review results should
                    not be projected to all DHS procurements.




            DHS Contracts Awarded Through Other Than Full and Open Competition 

                                 During Fiscal Year 2009 


                                          Page 16
Appendix A
Purpose, Scope, and Methodology

                    We conducted our fieldwork between November and December
                    2009 at contracting offices in Washington, DC and Emmitsburg,
                    MD. We conducted this performance audit according to generally
                    accepted government auditing standards. Those standards require
                    that we plan and perform the audit to obtain sufficient, appropriate
                    evidence to provide a reasonable basis for our findings and
                    conclusions based on our audit objectives. We believe the evidence
                    obtained provides a reasonable basis for our findings and
                    conclusions based on our audit objectives.




            DHS Contracts Awarded Through Other Than Full and Open Competition 

                                 During Fiscal Year 2009 


                                          Page 17
Appendix B
Management Comments to the Draft Report




            DHS Contracts Awarded Through Other Than Full and Open Competition 

                                 During Fiscal Year 2009 


                                          Page 18

Appendix B
Management Comments to the Draft Report




            DHS Contracts Awarded Through Other Than Full and Open Competition 

                                 During Fiscal Year 2009 


                                          Page 19

Appendix B
Management Comments to the Draft Report




            DHS Contracts Awarded Through Other Than Full and Open Competition 

                                 During Fiscal Year 2009 


                                          Page 20

Appendix B
Management Comments to the Draft Report




            DHS Contracts Awarded Through Other Than Full and Open Competition 

                                 During Fiscal Year 2009 


                                          Page 21

Appendix B
Management Comments to the Draft Report




            DHS Contracts Awarded Through Other Than Full and Open Competition 

                                 During Fiscal Year 2009 


                                          Page 22

Appendix B
Management Comments to the Draft Report




            DHS Contracts Awarded Through Other Than Full and Open Competition 

                                 During Fiscal Year 2009 


                                          Page 23

Appendix B
Management Comments to the Draft Report




            DHS Contracts Awarded Through Other Than Full and Open Competition 

                                 During Fiscal Year 2009 


                                          Page 24

Appendix B
Management Comments to the Draft Report




            DHS Contracts Awarded Through Other Than Full and Open Competition 

                                 During Fiscal Year 2009 


                                          Page 25

Appendix B
Management Comments to the Draft Report




            DHS Contracts Awarded Through Other Than Full and Open Competition 

                                 During Fiscal Year 2009 


                                          Page 26

Appendix B
Management Comments to the Draft Report




            DHS Contracts Awarded Through Other Than Full and Open Competition 

                                 During Fiscal Year 2009 


                                          Page 27

Appendix B
Management Comments to the Draft Report




            DHS Contracts Awarded Through Other Than Full and Open Competition 

                                 During Fiscal Year 2009 


                                          Page 28

Appendix B
Management Comments to the Draft Report




            DHS Contracts Awarded Through Other Than Full and Open Competition 

                                 During Fiscal Year 2009 


                                          Page 29

Appendix B
Management Comments to the Draft Report




            DHS Contracts Awarded Through Other Than Full and Open Competition 

                                 During Fiscal Year 2009 


                                          Page 30

Appendix B
Management Comments to the Draft Report




            DHS Contracts Awarded Through Other Than Full and Open Competition 

                                 During Fiscal Year 2009 


                                          Page 31

Appendix B
Management Comments to the Draft Report




            DHS Contracts Awarded Through Other Than Full and Open Competition 

                                 During Fiscal Year 2009 


                                          Page 32

Appendix B
Management Comments to the Draft Report




            DHS Contracts Awarded Through Other Than Full and Open Competition 

                                 During Fiscal Year 2009 


                                          Page 33

Appendix B
Management Comments to the Draft Report




            DHS Contracts Awarded Through Other Than Full and Open Competition 

                                 During Fiscal Year 2009 


                                          Page 34

Appendix B
Management Comments to the Draft Report




            DHS Contracts Awarded Through Other Than Full and Open Competition 

                                 During Fiscal Year 2009 


                                          Page 35

Appendix B
Management Comments
           Comments to the Draft Report




            DHS Contracts Awarded
                          Awarded Through Other Than Full and Open Competition 

                                  During Fiscal Year 2009 


                                          Page 36

                                               36
Appendix C
DHS Contracts Reviewed

                                 DHS Contracts Reviewed FY 2009


                       1                HSCG2309CACP362
                       2               HSCG2309CHFS001
                       3               HSCG2309CPBF028
                       4               HSCG2309CABP001
                       5               HSCG2309CABA001
                       6               HSCG2309CAB0001
                       7               HSCG2309CAB9001
                       8               HSCG2309CTMY052
                       9               HSCG2309CE43057
                       10              HSFEEM09C0412
                       11              HSFEEM09C0414
                       12              HSFEHQ09C0064
                       13              HSFEEM09C0462
                       14              HSFEHQ09C0888
                       15              HSFEEM09C0460
                       16              HSFEEM09C0417
                       17              HSFEHQ09C1783
                       18              HSFEEM09C0013
                       19              HSFEEM09C0327
                       20              HSHQDC09C00162
                       21              HSHQDC09C00167
                       22              HSHQDC09C00149
                       23              HSHQDC09C00004
                       24              HSHQDC09C00156
                       25              HSHQDC09C00090
                       26              HSHQDC09C00046
                       27              HSHQDC09C00178
                       28              HSHQDC09C00118
                       29              HSHQDC09C00023
                       30              HSTS0309CCIO610
                       31              HSTS0409CCT1340
                       32              HSTS0409CCT1328
                       33              HSTS0109CHRM023
                       34              HSTS0109CFIN023
                       35              HSTS0209CTTC102
                       36              HSTS0109CFIN008
                       37              HSTS0109CHRM141
                       38              HSTS0209CCGO025
                       39              HSTS0109CRES494




            DHS Contracts Awarded Through Other Than Full and Open Competition 

                                 During Fiscal Year 2009 


                                           Page 37

Appendix D
Major Contributors to this Report


                     Linda Howard, Director
                     LaParacina Robinson, Audit Manager
                     Elizabeth Clark, Program Analyst
                     Jason Kim, Program Analyst
                     Brian Smythe, Program Analyst
                     Roger Thoet, Program Analyst
                     Andrew Smith, Desk Officer




             DHS Contracts Awarded Through Other Than Full and Open Competition 

                                  During Fiscal Year 2009 


                                           Page 38
Appendix E
Report Distribution


                      Department of Homeland Security

                      Secretary
                      Deputy Secretary
                      Chief of Staff for Operations
                      Chief of Staff for Policy
                      Acting General Counsel
                      Executive Secretariat
                      Director, GAO/OIG Liaison Office
                      Assistant Secretary for Office of Policy
                      Assistant Secretary for Office of Public Affairs
                      Assistant Secretary for Office of Legislative Affairs
                      Under Secretary for Management
                      DHS Acting Chief Procurement Officer
                      DHS Competition Advocate
                      Director Office of Procurement Operations
                      DHS Component Liaison, FEMA
                      DHS Component Liaison, Office of the Secretary
                      DHS Component Liaison, OPO
                      DHS Component Liaison, TSA
                      DHS Component Liaison, USCG

                      Office of Management and Budget

                      Chief, Homeland Security Branch
                      DHS OIG Budget Examiner

                      Congress

                      Congressional Oversight and Appropriations Committees, as
                      appropriate




             DHS Contracts Awarded Through Other Than Full and Open Competition 

                                  During Fiscal Year 2009 


                                           Page 39

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General (OIG) at (202) 254-4100,
fax your request to (202) 254-4305, or visit the OIG web site at www.dhs.gov/oig.


OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or noncriminal
misconduct relative to department programs or operations:

• Call our Hotline at 1-800-323-8603;

• Fax the complaint directly to us at (202) 254-4292;

• Email us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
       DHS Office of Inspector General/MAIL STOP 2600,
       Attention: Office of Investigations - Hotline,
       245 Murray Drive, SW, Building 410,
       Washington, DC 20528.


The OIG seeks to protect the identity of each writer and caller.
